  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


HIGHMARK MEDICARE SERVICES, INC.,
  OVERSTATED ITS NONQUALIFIED
 DEFINED-BENEFIT PLAN MEDICARE
   SEGMENT PENSION ASSETS AND
OVERSTATED THE MEDICARE SEGMENT
    EXCESS PENSION LIABILITIES
      AS OF JANUARY 1, 2012


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                         April 2014
                                                       A-07-13-00429
                           Office of Inspector General
                                        https://oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.


Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Highmark Medicare Services, Inc. overstated the nonqualified defined-benefit plan
 Medicare segment pension assets by approximately $29,000 as of January 1, 2012. In
 addition, Highmark overstated the Medicare segment excess pension liabilities by
 approximately $376,000 as a result of the Medicare segment closing on January 1, 2012.


WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contracts and Cost Accounting Standards
(CAS) 412 and 413. The Centers for Medicare & Medicaid Services (CMS) incorporated this
requirement into the Medicare contracts beginning with fiscal year 1988. In addition, in
situations such as contract terminations, the Medicare contracts require contractors to identify
excess Medicare pension assets and liabilities in accordance with the CAS. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

The objectives of this review were to determine whether Highmark Medicare Services, Inc.
(Highmark), complied with Federal requirements and the Medicare contracts’ pension
segmentation requirements when (1) implementing the prior audit recommendations to increase
the Medicare Part A segment pension assets and decrease the Medicare Part B segment pension
assets as of January 1, 2003, (2) updating the Medicare segment’s pension assets from January 1,
2003, to January 1, 2012, and (3) determining the Medicare segment excess pension
assets/liabilities as a result of the Medicare segment closing.

BACKGROUND

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

During the period January 1, 2003, through January 1, 2006, Highmark maintained two Medicare
segments: a Medicare Part A segment and a Medicare Part B segment. On January 1, 2006,
Highmark consolidated the Medicare Parts A and B segments into a single Medicare segment.

With the implementation of Medicare contracting reform, Highmark continued to perform
Medicare work after being awarded the Medicare administrative contractor (MAC) (Jurisdiction
12) contract on October 24, 2007. While performing its MAC work, Highmark also functioned
as a Medicare Part A fiscal intermediary and Part B carrier, with those contracts terminating in
July 2008 and December 2008, respectively. Highmark continued to work as the Jurisdiction 12
MAC until January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark,
to DSO.



Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)   i
Highmark sponsors the Highmark Executive Retirement Restoration Plan (HERRP), whose
primary purpose is to provide deferred compensation to a select group of management or highly
compensated employees. The HERRP is a nonqualified defined-benefit plan designed to restore
pension accruals that were not provided through the qualified defined-benefit pension plan as a
result of elective deferrals of compensation or the statutory limits imposed by the Internal
Revenue Code sections 401(a)(17) and 415.

We performed a prior pension segmentation audit at Highmark (A-07-06-00203, issued
January 20, 2006), which brought the Medicare Parts A and B segment pension assets to
January 1, 2003. We recommended that Highmark increase its Medicare Part A segment pension
assets by $4,057 and, as a result, recognize $227,868 as the Medicare Part A segment pension
assets as of January 1, 2003. We also recommended that Highmark decrease its Medicare Part B
segment pension assets by $50,351 and, as a result, recognize $409,562 as the Medicare Part B
segment pension assets as of January 1, 2003.

Upon the termination of its Medicare contracts, Highmark identified Medicare segment excess
pension assets of $201,942. We examined these excess pension assets as part of the current
review.

WHAT WE FOUND

Highmark did not fully implement the prior audit recommendations to recognize $227,868 as the
Medicare Part A segment pension assets and $409,562 as the Medicare Part B segment pension
assets as of January 1, 2003. Additionally, Highmark did not correctly update the Medicare
segment pension assets from January 1, 2003, to January 1, 2012, in accordance with Federal
requirements. Highmark identified Medicare segment pension assets of $1,428,072 as of
January 1, 2012; however, we determined that the Medicare segment pension assets were
$1,398,622 for that same period. Therefore, Highmark overstated the Medicare segment pension
assets by $29,450.

Regarding our third objective, Highmark computed the Medicare segment excess pension assets
to be $201,942 as of January 1, 2012 (the effective date that DSO acquired Highmark); however,
we identified excess Medicare segment pension liabilities totaling $174,400 as of that date.
Accordingly, Highmark overstated the Medicare segment excess pension liabilities by $376,342
because of differences in the final Medicare segment pension assets.

WHAT WE RECOMMEND

We recommend that Highmark:

    •   decrease Medicare segment pension assets as of January 1, 2012, by $29,450 and
        recognize $1,398,622 as the Medicare segment pension assets,

    •   decrease its final Medicare segment pension assets by $376,342 to recognize $174,400 as
        the Medicare segment excess pension liabilities as of January 1, 2012, and



Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)   ii
    •   work with CMS to determine Medicare’s share of the Medicare segment excess pension
        liabilities as of January 1, 2012.

AUDITEE COMMENTS

In written comments on our draft report, Highmark concurred with our recommendations.




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)   iii
                                                    TABLE OF CONTENTS


INTRODUCTION ................................................................................................................... 1

       Why We Did This Review ............................................................................................... 1

       Objectives ........................................................................................................................ 1

       Background ...................................................................................................................... 1

       How We Conducted This Review.................................................................................... 2

FINDINGS ............................................................................................................................... 2

       Prior Audit Recommendations ......................................................................................... 3

       Update of Medicare Segment Pension Assets ................................................................. 3
           Contributions and Transferred Prepayment Credits Overstated .............................. 4
           Earnings, Net of Expenses Overstated ..................................................................... 5

       Medicare Segment Excess Pension Liabilities................................................................. 5

RECOMMENDATIONS ......................................................................................................... 6

AUDITEE COMMENTS......................................................................................................... 6

APPENDIXES

       A: Audit Scope and Methodology ................................................................................. 7

       B: Statement of Market Value of
          Nonqualified Defined-Benefit Plan
          Pension Assets for Highmark Medicare Services, Inc.,
          for the Period January 1, 2003, Through January 1, 2012 ........................................ 9

       C: Federal Requirements Related to Pension
          Segmentation and Segment Closing Adjustment...................................................... 12

       D: Allowable and Allocable Fiscal Intermediary and Carrier Contract
          Nonqualified Defined-Benefit Plan Pension Costs
          for the Period of Fiscal Years 1993 Through 2009................................................... 14

       E: Auditee Comments .................................................................................................... 15




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)                                               iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contracts and Cost Accounting Standards
(CAS) 412 and 413. The Centers for Medicare & Medicaid Services (CMS) incorporated this
requirement into the Medicare contracts beginning with fiscal year 1988. In addition, in
situations such as contract terminations, the Medicare contracts require contractors to identify
excess Medicare pension assets and liabilities in accordance with the CAS. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

OBJECTIVES

Our objectives were to determine whether Highmark Medicare Services, Inc. (Highmark),
complied with Federal requirements and the Medicare contracts’ pension segmentation
requirements when (1) implementing the prior audit recommendation to increase the Medicare
Part A segment pension assets and decrease the Medicare Part B segment pension assets as of
January 1, 2003, (2) updating the Medicare segment’s pension assets from January 1, 2003, to
January 1, 2012, and (3) determining the Medicare segment excess pension assets/liabilities as a
result of the Medicare segment closing.

BACKGROUND

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

During the period January 1, 2003, through January 1, 2006, Highmark maintained two Medicare
segments: a Medicare Part A segment and a Medicare Part B segment. On January 1, 2006,
Highmark consolidated the Medicare Parts A and B segments into a single Medicare segment.

With the implementation of Medicare contracting reform, 1 Highmark continued to perform
Medicare work after being awarded the MAC (Jurisdiction 12) contract on October 24, 2007. 2
While performing its MAC work, Highmark also functioned as a Medicare Part A fiscal
intermediary and Part B carrier, with those contracts terminating in July 2008 and

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
 Medicare Parts A and B Jurisdiction 12 consists of the States of Delaware, Maryland, New Jersey, and
Pennsylvania, and the District of Columbia.

Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)                      1
December 2008, respectively. Highmark continued to work as the Jurisdiction 12 MAC until
January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark, to DSO.

Highmark sponsors the Highmark Executive Retirement Restoration Plan (HERRP), whose
primary purpose is to provide deferred compensation to a select group of management or highly
compensated employees. The HERRP is a nonqualified defined-benefit plan (NQDBP) designed
to restore pension accruals that were not provided through the qualified defined-benefit pension
plan as a result of elective deferrals of compensation or the statutory limits imposed by the
Internal Revenue Code sections 401(a)(17) and 415.

We performed a prior pension segmentation audit at Highmark (A-07-06-00203, issued
January 20, 2006), which brought the Medicare Parts A and B segment pension assets to
January 1, 2003. We recommended that Highmark increase its Medicare Part A segment pension
assets by $4,057 and, as a result, recognize $227,868 as the Medicare Part A segment pension
assets as of January 1, 2003. We also recommended that Highmark decrease its Medicare Part B
segment pension assets by $50,351 and, as a result, recognize $409,562 as the Medicare Part B
segment pension assets as of January 1, 2003.

Upon the termination of its Medicare contracts, Highmark identified Medicare segment excess
pension assets of $201,942. We examined these excess pension assets as part of the current
review.

HOW WE CONDUCTED THIS REVIEW

We reviewed Highmark’s implementation of the prior audit recommendations; identification of
its Medicare segment; update of Medicare segment assets from January 1, 2003, to January 1,
2012; and the Medicare segment’s closing calculation as of January 1, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                FINDINGS

Highmark did not fully implement the prior audit recommendations to recognize $227,868 as the
Medicare Part A segment pension assets and $409,562 as the Medicare Part B segment pension
assets as of January 1, 2003. Additionally, Highmark did not correctly update the Medicare
segment pension assets from January 1, 2003, to January 1, 2012, in accordance with Federal
requirements. Highmark identified Medicare segment pension assets of $1,428,072 as of
January 1, 2012; however, we determined that the Medicare segment pension assets were
$1,398,622 for that same period. Therefore, Highmark overstated the Medicare segment pension
assets by $29,450.

Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)   2
Appendix B presents details of the Medicare segment’s pension assets from January 1, 2003, to
January 1, 2012, as determined during our audit. Table 1 below summarizes the audit
adjustments required to update the Medicare segment pension assets in accordance with Federal
requirements.

                        Table 1: Summary of Audit Adjustments
                                              Per Audit    Per Highmark Difference
Prior Audit Recommendation
  Medicare Part A Segment                         $227,868      $227,911     $(43)
  Medicare Part B Segment                          409,562       409,640       (78)

Update of Medicare Segment Assets
  Contributions and Prepayment Credits                              517,120             543,084     (25,964)
  Benefit Payments                                                 (60,013)            (60,013)            0
  Net Transfers Out                                                (21,657)            (21,657)            0
  Earnings, Net of Expenses                                         325,742             329,107      (3,365)
Overstatement of Medicare Segment Assets                                                           ($29,450)

Regarding our third objective, the CAS requires that a segment closing adjustment be made to
recognize the Medicare segment excess pension assets/liabilities as a result of the closing of the
Medicare segment. Highmark computed the Medicare segment excess pension assets to be
$201,942 as of January 1, 2012 (the effective date that DSO acquired Highmark); however, we
identified excess Medicare segment pension liabilities totaling $174,400 as of that date.
Accordingly, Highmark overstated the Medicare segment excess pension liabilities by $376,342
because of differences in the final Medicare segment pension assets.

PRIOR AUDIT RECOMMENDATIONS

Highmark did not fully implement the prior audit recommendations (A-07-06-00203), which
recommended that (1) Highmark increase its Medicare Part A segment pension assets by $4,057
and, as a result, recognize $227,868 as the Medicare Part A segment pension assets as of
January 1, 2003, and (2) Highmark decrease its Medicare Part B segment pension assets by
$50,351 and, as a result, recognize $409,562 as the Medicare Part B segment pension assets as of
January 1, 2003. Highmark made an asset adjustment of $4,100 to increase the Medicare Part A
segment pension assets at January 1, 2003. Additionally, Highmark made an asset adjustment of
$50,273 to decrease the Medicare Part B segment pension assets at January 1, 2003. Therefore,
Highmark overstated the January 1, 2003, Medicare Parts A and B segment pension assets by
$43 and $78, respectively.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

The Medicare contracts require Medicare contractors to update the Medicare segment pension
assets yearly in accordance with the CAS. The CAS requires that the asset base be adjusted by
contributions, permitted unfunded accruals, income, benefit payments, and expenses. For details

Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)         3
on the Federal requirements and the relevant language of the Medicare contracts, see
Appendix C.

Highmark did not correctly update the Medicare segment pension assets from January 1, 2003, to
January 1, 2012, in accordance with Federal requirements. Highmark identified Medicare
segment pension assets of $1,428,072 as of January 1, 2012; however, we determined that the
Medicare segment pension assets were $1,398,622 for that same period. Therefore, Highmark
overstated the Medicare segment pension assets by $29,450. The following are our findings
regarding the update of the Medicare segment pension assets from January 1, 2003, to January 1,
2012.

Contributions and Transferred Prepayment Credits Overstated

The audited contributions and transferred prepayment credits 3 are based on the assignable
pension costs. 4 In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit. For
additional details on these Federal requirements, see Appendix C.

Highmark overstated contributions and transferred prepayment credits by $25,964 for the
Medicare segment. The overstatement occurred primarily because of differences in the asset
base used to compute the assignable pension costs. Table 2 below shows the differences
between the contributions and prepayment credits calculated by Highmark and the contributions
and prepayment credits that we calculated during our review.

                                          Table 2: Contributions and
                                        Transferred Prepayment Credits
                                        Per Audit Per Highmark Difference
                               2003            $0              $0          $0
                               2004             0          26,339    (26,339)
                               2005       112,188         119,640     (7,452)
                               2006             0               0           0
                               2007        68,300          64,951       3,349
                               2008       137,643         134,966       2,677
                               2009       198,989         197,188       1,801
                               2010             0               0           0
                               2011             0               0           0
                               Total     $517,120        $543,084 ($25,964)



3
  A prepayment credit is the amount funded in excess of the pension costs assigned to a cost accounting period that
is carried forward for future recognition.
4
    These are assigned to a specific cost accounting period.

Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)                      4
Earnings, Net of Expenses Overstated

Highmark overstated investment earnings, less administrative expenses, by $3,365 for the
Medicare segment, primarily because it used incorrect contributions and transferred prepayment
credits (discussed above) to develop the Medicare segment pension asset base. In our audited
update, we allocated earnings, net of expenses based on the applicable CAS requirements. For
details on the applicable Federal requirements, see Appendix C.

Table 3 below shows the differences between Highmark’s calculated earnings, net of expenses
and the amounts that we calculated during our review.

                                 Table 3: Earnings, Net of Expenses
                                  Per Audit Per Highmark Difference
                            2003    $82,938          $82,304         $634
                            2004      45,216          46,477     (1,261)
                            2005      13,872          13,845           27
                            2006      67,243          69,435     (2,192)
                            2007      43,553          44,403        (850)
                            2008 (279,348)         (281,462)        2,114
                            2009    182,186          180,560        1,626
                            2010    162,039          165,353     (3,314)
                            2011       8,043           8,192        (149)
                            Total $325,742          $329,107      $3,365

MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal regulations (Appendix C) require Highmark to compute a Medicare segment closing
adjustment as a result of the termination of its Medicare contract. 5 Highmark identified
$201,942 in Medicare segment excess pension assets as of January 1, 2012 (the effective date
that DSO acquired Highmark). However, we identified Medicare segment excess pension
liabilities totaling $174,400 as of that date. Therefore, Highmark overstated the excess pension
assets by $376,342. Specifically, this overstatement occurred because Highmark (1) overstated
the Medicare segment’s final market value of pension assets and (2) incorrectly calculated the
unallowable unfunded pension cost as of January 1, 2012.



5
  CAS 413.50(c)(12) requires that Medicare’s share of the excess pension liabilities be determined using a fraction
of which the numerator is the sum of all pension plan costs allocated to the contract and the denominator is the sum
of the total pension costs assigned to cost accounting periods during those same years. Because Highmark began
using indirect cost rates for its MAC pension costs and because those indirect cost rates have not been finalized, we
cannot readily determine the sum of the pension plan costs allocated to all contracts. As a result, we cannot
calculate the percentage necessary to determine Medicare’s share of the Medicare segment excess pension liabilities
as of January 1, 2012, and for this reason we have not associated a specific dollar amount with our third
recommendation. However, Appendix D of this report provides the necessary information for CMS to calculate the
fraction and thus determine Medicare’s share of the excess pension liabilities, once Highmark’s indirect cost rates
are finalized.

Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)                    5
                                       RECOMMENDATIONS

We recommend that Highmark:

    •   decrease Medicare segment pension assets as of January 1, 2012, by $29,450 and
        recognize $1,398,622 as the Medicare segment pension assets,

    •   decrease its final Medicare segment pension assets by $376,342 to recognize $174,400 as
        the Medicare segment excess pension liabilities as of January 1, 2012, and

    •   work with CMS to determine Medicare’s share of the Medicare segment excess pension
        liabilities as of January 1, 2012.

                                       AUDITEE COMMENTS

In written comments on our draft report, Highmark concurred with our recommendations.
Specifically, Highmark agreed to decrease the Medicare segment pension assets by $29,450
(from $1,428,072 to $1,398,622) as of January 1, 2012, and to decrease the Medicare segment
excess pension liabilities by $376,342 and recognize $174,400 as the Medicare segment excess
pension liabilities as of January 1, 2012.

Highmark’s comments are included in their entirety as Appendix E.




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)   6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Highmark’s implementation of the prior audit recommendations; identification of
its Medicare segment; update of Medicare segment assets from January 1, 2003, to January 1,
2012; and the Medicare segment’s closing calculation as of January 1, 2012.

Achieving our objective did not require that we review Highmark’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment, the
update of the Medicare segment’s assets, and the Medicare segment’s final assets and liabilities
to ensure adherence to the Medicare contracts, CAS 412, and CAS 413.

We performed our fieldwork at Highmark in Camp Hill, Pennsylvania, in September 2012.

METHODOLOGY

To accomplish our objectives, we took the following steps:

    •     We reviewed the portions of the Federal Acquisition Regulation, CAS, and the
          Medicare contracts applicable to this audit.

    •     We reviewed the annual actuarial valuation reports prepared by Highmark’s actuarial
          consulting firm, which included the NQDBP assets, liabilities, normal costs,
          contributions, benefit payments, investment earnings, and administrative expenses. We
          used this information to calculate the Medicare segment assets.

    •     We obtained and reviewed the NQDBP documents used in calculating the Medicare
          segment assets.

    •     We interviewed Highmark staff responsible for identifying the Medicare segment to
          determine whether the segment was properly identified in accordance with the Medicare
          contracts.

    •     We reviewed Highmark’s accounting records to verify the segment identification and
          benefit payments made to the Medicare segment.

    •     We reviewed the Medicare segment closing calculation prepared by Highmark’s staff
          and its actuarial consulting firm.

    •     We reviewed the prior segmentation audit performed at Highmark (A-07-06-00203) to
          determine the beginning market value of assets.

    •     We provided the CMS Office of the Actuary with the actuarial information necessary
          for it to calculate the Medicare segment pension assets from January 1, 2003, to


Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)   7
          January 1, 2012, and the Medicare segment’s excess pension liabilities as of
          January 1, 2012.

    •     We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used the information
obtained during this review:

    •   Highmark Medicare Services, Inc., Did Not Claim Some Allowable Medicare
        Nonqualified Defined-Benefit Plan Pension Costs for Fiscal Years 2003 Through 2009
        (A-07-13-00430); and

    •   Highmark Medicare Services, Inc., Understated Its Allocable Nonqualified Defined-
        Benefit Plan Pension Costs for Calendar Years 2008 Through 2011 (A-07-13-00431).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)   8
                                                   APPENDIX B: STATEMENT OF MARKET VALUE OF 

                                                      NONQUALIFIED DEFINED-BENEFIT PLAN 

                                              PENSION ASSETS FOR HIGHMARK MEDICARE SERVICES, INC.,

                                              FOR THE PERIOD JANUARY 1, 2003 THROUGH JANUARY 1, 2012



                                                                                                            Medicare A      Medicare B       Gateway
                 Description                         Total Company                Other Segments             Segment         Segment         Segment

      Assets January 1, 2003                 1/             $21,222,522                     $20,585,092         $227,868        $409,562

      Prepayment Credits                                              0                               0               0               0
      Contributions                          2/               5,124,928                       5,124,928               0               0
      Other Transactions                                              0                               0               0               0
      Earnings                               3/               3,217,177                       3,125,061          33,010          59,106
      Benefit Payments                       4/              (4,558,778)                     (4,555,660)              0          (3,118)
      Administrative Expenses                5/                (320,524)                       (311,346)         (3,289)         (5,889)
      Transfers                              6/                       0                               0               0               0

      Assets January 1, 2004                               $24,685,325                     $23,968,075         $257,589        $459,661                $0

      Prepayment Credits                                              0                               0               0               0
      Contributions                                           4,028,739                       4,028,739               0               0
      Other Transactions                                              0                               0               0               0
      Earnings                                                1,880,419                       1,826,176          19,523          34,720
      Benefit Payments                                       (4,902,300)                     (4,899,182)              0          (3,118)
      Administrative Expenses                                  (312,944)                       (303,917)         (3,249)         (5,778)
      Transfers                                                       0                               0               0               0

      Assets January 1, 2005                               $25,379,239                     $24,619,891         $273,863        $485,485                $0

      Prepayment Credits                     7/                       0                        (196,095)              0           96,558          99,537
      Contributions                                           5,088,303                       5,056,560               0           15,630          16,113
      Other Transactions                     8/                       0                               0         607,175         (607,175)              0
      Earnings                                                1,318,855                       1,273,166          12,770           27,766           5,153
      Benefit Payments                                       (1,045,803)                     (1,042,685)         (3,118)               0               0
      Administrative Expenses                                  (867,522)                       (837,468)         (8,400)         (18,264)         (3,390)
      Transfers                                                       0                           1,654               0                0          (1,654)

      Assets January 1, 2006                               $29,873,072                     $28,875,023         $882,290              $0         $115,759

      Prepayment Credits                                              0                         (85,907)               0                 0        85,907
      Contributions                                           6,045,299                       6,027,241                0                 0        18,058
      Other Transactions                                              0                               0                0                 0             0
      Earnings                                                3,287,519                       3,179,109           87,273                 0        21,137
      Benefit Payments                                       (1,184,486)                     (1,181,368)          (3,118)                0             0
      Administrative Expenses                                  (754,533)                       (729,652)         (20,030)                0        (4,851)
      Transfers                                                       0                               0                0                 0             0

      Assets January 1, 2007                               $37,266,871                     $36,084,446         $946,415              $0         $236,010




Highmark Medicare Services, Inc., Nonqualified Defined-Benenfit Plan Pension Segmentation (A-07-13-00429)                                               9
                                                                                                            Medicare       Gateway
                 Description                         Total Company                Other Segments            Segment        Segment

      Assets January 1, 2007                               $37,266,871                     $36,084,446        $946,415       $236,010

      Prepayment Credits                                              0                        (157,859)         62,822        95,037
      Contributions                                           6,239,907                       6,226,144           5,478         8,285
      Other Transactions                                              0                               0               0             0
      Earnings                                                2,517,704                       2,434,443          62,611        20,650
      Benefit Payments                                       (1,251,515)                     (1,242,655)         (3,118)       (5,742)
      Administrative Expenses                                  (766,350)                       (741,006)        (19,058)       (6,286)
      Transfers                                                       0                               0               0             0

      Assets January 1, 2008                               $44,006,617                     $42,603,513       $1,055,150      $347,954

      Prepayment Credits                                             0                         (270,020)        115,541       154,479
      Contributions                                          7,709,587                        7,657,934          22,102        29,551
      Other Transactions                                             0                                0               0             0
      Earnings                                             (10,354,405)                      (9,980,652)       (260,503)     (113,250)
      Benefit Payments                                      (3,786,571)                      (3,769,673)         (3,118)      (13,780)
      Administrative Expenses                                 (749,030)                        (721,993)        (18,845)       (8,192)
      Transfers                                                      0                                0               0             0

      Assets January 1, 2009                               $36,826,198                     $35,519,109        $910,327       $396,762

      Prepayment Credits                                             0                        (338,593)        160,018        178,575
      Contributions                                          9,059,068                       8,976,607          38,971         43,490
      Other Transactions                                             0                               0               0              0
      Earnings                                               6,811,334                       6,500,364         201,251        109,719
      Benefit Payments                                     (11,214,828)                    (11,197,930)         (3,118)       (13,780)
      Administrative Expenses                                 (645,241)                       (615,782)        (19,065)       (10,394)
      Transfers                                                      0                               0               0              0

      Assets January 1, 2010                               $40,836,531                     $38,843,775       $1,288,384      $704,372

      Prepayment Credits                                              0                               0              0              0
      Contributions                                                   0                               0              0              0
      Other Transactions                                              0                               0              0              0
      Earnings                                                5,467,950                       5,184,710        182,873        100,367
      Benefit Payments                                       (5,675,704)                     (5,626,855)       (35,069)       (13,780)
      Administrative Expenses                                  (622,943)                       (590,675)       (20,834)       (11,434)
      Transfers                                                       0                          21,657        (21,657)             0

      Assets January 1, 2011                               $40,005,834                     $37,832,612       $1,393,697      $779,525




Highmark Medicare Services, Inc., Nonqualified Defined-Benenfit Plan Pension Segmentation (A-07-13-00429)                                10
                                                                                                            Medicare       Gateway          Highmark West
                 Description                         Total Company                Other Segments            Segment        Segment          Virginia Segment

      Assets January 1, 2011                               $40,005,834                     $37,832,612       $1,393,697      $779,525                      $0

      Prepayment Credits                                              0                         (64,261)              0              0                 64,261
      Contributions                                           3,130,301                       3,130,301               0              0                      0
      Other Transactions                                              0                               0               0              0                      0
      Earnings                                                  919,630                         867,903          32,541         18,060                  1,126
      Benefit Payments                                       (5,349,096)                     (5,300,036)         (3,118)       (13,780)               (32,162)
      Administrative Expenses                                  (692,337)                       (653,395)        (24,498)       (13,596)                  (848)
      Transfers                                                       0                           2,012               0         (2,012)                     0

      Assets January 1, 2012                               $38,014,332                     $35,815,136       $1,398,622      $768,197                 $32,377
      Per Highmark                           9/             38,014,332                      35,771,766        1,428,072       780,784                  33,710
      Asset Variance                        10/                      0                         (43,370)          29,450        12,587                   1,333




ENDNOTES

  1/ We determined the Medicare Parts A and B segment pension assets as of January 1, 2003, based on our prior segmentation audit of Highmark, Inc., of
     Pennsylvania (A-07-06-00203). The amounts shown for the Other segment represent the difference between the Total Company and the Medicare
     segment. All pension assets are shown at market value.

  2/ We obtained Total Company contribution amounts from the actuarial valuation reports. We allocated Total Company contributions to the Medicare
     segment based on the ratio of the Medicare segment funding target divided by the Total Company funding target. Contributions in excess of the funding
     targets were treated as prepayment credits and accounted for in the Other segment until needed to fund pension costs in the future

  3/ We obtained net investment earnings from the actuarial valuation reports. We allocated net investment earnings based on the ratio of each segment’s
     weighted average value (WAV) of assets to Total Company WAV of assets as required by the CAS.

  4/ We based each Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained the benefit payments from documents
     provided by Highmark.

  5/ In accordance with the CAS, we allocated administrative expenses to each Medicare segment in proportion to investment earnings.

  6/ We identified participant transfers between segments by comparing valuation data files provided by Highmark. Asset transfers were equal to the actuarial
     liability determined under the accrued benefit cost method in accordance with the CAS.

  7/ Transferred prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements before
     current year contributions in order to avoid incurring unallowable interest. Prepayment credits are transferred to the Medicare segment as needed to cover
     funding requirements.

  8/ The Other transactions represent the combination of the Medicare Parts A and B segments into one Medicare segment, effective January 1, 2006.

  9/ We obtained total asset amounts from documents prepared by Highmark’s actuarial consulting firm.

 10/ The asset variance represents the difference between our calculation of Medicare segment pension assets and Highmark’s calculation of the Medicare
     segment pension assets. Additionally, Highmark maintained and separately accounted for the Highmark West Virginia (HMV) and Gateway segments in
     its CAS asset rollups. Because the HMV and Gateway segments were accounted for separately by Highmark, we followed the same methodology.
     Although we identified HWV and Gateway asset variances, we will not report on these differences because these segments do not perform Medicare work
     and therefore are not subject to our review. However, it was necessary to roll forward the HWV and Gateway segment pension assets to properly calculate
     the Medicare segment pension assets as of January 1, 2012.




Highmark Medicare Services, Inc., Nonqualified Defined-Benenfit Plan Pension Segmentation (A-07-13-00429)                                                   11
          APPENDIX C: FEDERAL REQUIREMENTS RELATED TO PENSION
             SEGMENTATION AND SEGMENT CLOSING ADJUSTMENT

PENSION SEGMENTATION

Federal Regulations

Federal regulations (CAS 412.50(a)(4)) require that contributions in excess of the pension cost
assigned to the period be recognized as prepayment credits and accumulated at the assumed
valuation interest rate until applied to future period costs. Prepayment credits that have not been
applied to fund pension costs are excluded from the value of assets used to compute pension
costs.

Federal regulations (CAS 413.50(c)(7)) require that the asset base be adjusted by contributions,
permitted unfunded accruals, income, benefit payments, and expenses. For plan years beginning
after March 30, 1995, the CAS requires investment income and expenses to be allocated among
segments based on the ratio of the segment’s WAV of assets to Total Company WAV of assets.

Federal regulations (CAS 413.50(c)(8)) require an adjustment to be made for transfers
(participants who enter or leave the segment) if the transfers materially affect the segment’s ratio
of pension plan assets to actuarial accrued liabilities.

Medicare Contracts

The Medicare contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).”




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Pension Segmentation (A-07-13-00429)   12
MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal Regulations

Federal regulations (CAS 413.50(c)(12)) state:

        If a segment is closed, if there is a pension plan termination, or if there is a
        curtailment of benefits, the contractor shall determine the difference between the
        actuarial liability for the segment and the market value of the assets allocated to
        the segment, irrespective of whether or not the pension plan is terminated. The
        difference between the market value of the assets and the actuarial accrued
        liability for the segment represents an adjustment of previously-determined
        pension costs.

        (i) The determination of the actuarial accrued liability shall be made using the
        accrued benefit cost method. The actuarial assumptions employed shall be
        consistent with the current and prior long term assumptions used in the
        measurement of pension costs ….

        (ii) … The market value of the assets shall be reduced by the accumulated value
        of prepayment credits, if any. Conversely, the market value of assets shall be
        increased by the current value of any unfunded actuarial liability separately
        identified and maintained in accordance with 9904.412-50(a)(2).

        (iii) The calculation of the difference between the market value of the assets and
        the actuarial accrued liability shall be made as of the date of the event (e.g.,
        contract termination, plan amendment, plant closure) that caused the closing of
        the segment, pension plan termination, or curtailment of benefits. If such a date is
        not readily determinable, or if its use can result in an inequitable calculation, the
        contracting parties shall agree on an appropriate date.

        (iv) Pension plan improvements adopted within 60 months of the date of the event
        which increase the actuarial accrued liability shall be recognized on a prorata
        basis using the number of months the date of adoption preceded the event date.
        Plan improvements mandated by law or collective bargaining agreement are not
        subject to this phase-in.

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension assets and
liabilities in accordance with CAS 413.




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)   13
                               APPENDIX D: ALLOWABLE AND ALLOCABLE FISCAL INTERMEDIARY AND CARRIER CONTRACT 

                                               NONQUALIFIED DEFINED-BENEFIT PLAN PENSION COSTS 

                                                FOR THE PERIOD OF FISCAL YEARS 1993 THROUGH 2009


                  Medicare A Segment            Total Medicare A  Medicare B Segment                       Total Medicare B
                     Pension Costs              Segment Pension Pension Costs Charged to                   Segment Pension Total Medicare Pension Costs Total Medicare Segment
     FY           Charged to Medicare                 Costs             Medicare                                 Costs      Charged to Medicare (A + C) Pension Costs (B + D)
     1/                   (A)                          (B)                (C)                                     (D)                   (E)                      (F)

    1993                     $0                           $0                        $7,570                      $8,039                $7,570                    $8,039
    1994                      0                            0                        18,359                      19,116                18,359                    19,116
    1995                      0                            0                        11,284                      11,318                11,284                    11,318
    1996                   2,779                        2,799                      146,538                     146,846               149,317                   149,645
    1997                   3,352                        3,353                      111,594                     111,639               114,946                   114,992
    1998                 150,973                      155,642                      21,019                       21,103               171,992                   176,745
    1999                  51,612                       51,612                      69,556                       69,563               121,168                   121,175
    2000                     0                            0                        22,863                       23,188                22,863                    23,188
    2001                  29,141                       29,141                         0                            0                  29,141                    29,141
    2002                   9,714                        9,714                         0                            0                   9,714                     9,714
    2003                     0                            0                           0                            0                     0                         0
    2004                     0                            0                           0                            0                     0                         0
    2005                 33,067                        84,141                      50,417                       84,141               83,484                     84,141
    2006                 11,435                        28,047                      16,612                       28,047               28,047                     28,047
    2007                 22,109                        51,225                      29,116                       51,225               51,225                     51,225
    2008                 31,400                       120,307                      52,346                      120,307               83,746                    120,307
    2009                     0                         34,411                       8,348                       34,411                8,348                     34,411

    Total                $345,582                    $570,392                     $565,622                    $728,943               $911,204                 $981,204


ENDNOTE
1/ This table shows the allocable and allowable fiscal intermediary and carrier contract NQDBP pension costs based on the audited pension costs as determined during the
   pension audits related to the Highmark Medicare Parts A and B segments. The information for the Medicare Part A segment for fiscal years (FYs) 1996 through 1997 was
   obtained during a prior audit (A-07-06-00200). The information for the Medicare Part B segment for FYs 1992 through 1997 was obtained during a prior audit (A-07-06-
   00201). The information for the Medicare Parts A and B segments for FYs 1998 through 2002 was obtained during our prior audit (A-07-06-00202). The information for
   FYs 2003 through 2009 was obtained during the current review (A-07-13-00430).




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Pension Segmentation (A-07-13-00429)                                                                    14
                                APPENDIX E: AUDITEE COMMENTS




                                                         <ffiGHMARK.

            Apri111, 2014

            Mr. Patrick Cogley
            Regional Inspector General for Audit Services
            Office of Audit Services, Region VII
            Department of Health and Human Services
            601 East 12th Street, Room 0429
            Kansas City, MO 64106

            Subject: OIG Report Number A-07-13-00429

            Dear Mr. Cogley:

            Thank you for affording Highmark Inc. ("Highmark") this opportunity to comment on the U.S.
            Department of Health and Human Services, Office of Inspector General ("OIG"), draft report
            entitled Highmark Medicare Services, Inc., Ovm·stated Its Nonqualified Defined-Benefit Plan
            Medicare Segment Pension Assets and Overstated the Medicare Segment Excess Pension
            Liabilities as ofJanuary 1, 2012.

            We have carefully reviewed both the draft audit report and the additional detailed supplemental
            information received from the audit team. Our comments on the recommendations specific to this
            report are provided below:

            1.   Highmark agrees that the Medicare segment pension assets as of January 1, 2012 should be
                 decreased by $29,450 from $1,428,072 to $1,398,622.

            2. Highmark agrees that the Medicare segment pension assets should be decreased by $376,342,
                 and that Highmark should thus recognize Medicare segment excess pension liabilities of
                 $174,400 as of January 1, 2012.

            While we concur with the overall recommendations in this report, Highmark's detailed
            examination of the individual data elements identified various minor transpositions, CAS
            application and other differences that Highmark does not contest because the net impact of these
            items is immaterial to the overall pension and nonqualified pension audit findings.

            Thank you again for affording Highmark the opportunity to comment on this report. Please do not
            hesitate to contact me if you have any questions regarding this response.

            Sincerely,

                 ~~.~~
            Janine K. Colinear
            Chief Accounting Officer
                                                                            CorpurMe Offices:
                                                                          C II IIP H itl l 'A l :'OH'I
                                       r ifth A\l'Jlll(' j•J.u l'   •   l lt I r iuh A\t•nm· • Pitt<.hu n.J,h jl,\ J i.1.!..1- :n•J•J
                                                                          \\\\\\.highj l l.lrJ.•.t Cl!ll




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Segmentation (A-07-13-00429)                                        15
